         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       Limited Investigation Led to
       Missed Contamination at
       Ringwood Superfund Site

       Report No. 2007-P-00039

       September 25, 2007
Report Contributors:	               Carolyn Copper
                                    Patrick Milligan
                                    Angela Bennett
                                    Jee Kim
                                    Steven Weber




Abbreviations:

Borough        	 orough of Ringwood
               B
CERCLA 	       Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS        	Comprehensive Environmental Response, Compensation, and Liability
               Information System
EPA 	          U.S. Environmental Protection Agency
ERRD 	         Emergency and Remedial Response Division
Ford 	         Ford Motor Company
NCP 	          National Contingency Plan
NJDEP 	        New Jersey Department of Environmental Protection
NPL 	          National Priorities List
OIG 	          Office of Inspector General
OSWER 	        Office of Solid Waste and Emergency Response
RPM 	          Remedial Project Manager
Site 	         Ringwood Mines/Landfill Superfund Site




Cover photo:      Paint sludge deposit at the Site. (Photo taken by OIG, August 2006)
                       U.S. Environmental Protection Agency                                            2007-P-00039

                       Office of Inspector General                                                September 25, 2007





                       At a Glance

                                                                       Catalyst for Improving the Environment

Why We Did This Review            Limited Investigation Led to Missed
                                  Contamination at Ringwood Superfund Site
Members of Congress
requested that we examine
                                   What We Found
several issues about the
cleanup decisions, oversight,
                                  EPA’s oversight of the Ford Motor Company’s cleanup at the Site met many
and actions at the Ringwood
                                  requirements. Based on the initial investigation, EPA selected a remedy that
Mines/Landfill Superfund site
                                  addressed groundwater and surface water concerns at the Site. EPA ensured
(Site) located in Ringwood,
New Jersey. This report           implementation of the remedy and removal of identified paint sludge, deleted the
addresses questions raised        Site from the NPL, and conducted the 5-year reviews. However, EPA did not
                                  comply with the community notification requirements when conducting the 5-year
about cleaning up the Site and
                                  reviews.
the U.S. Environmental
Protection Agency’s (EPA’s)
oversight of that cleanup.        Residents continued to discover paint sludge at the Site after EPA deleted it from
                                  the NPL in 1994. These discoveries were because EPA did not ensure that Ford’s
Background                        initial Site investigation was comprehensive. During the initial investigation, EPA
                                  could have ensured that Ford conducted a more comprehensive survey of the 500-
In 1983, due to concerns about    acre Site and made better use of aerial photographs. In addition, EPA itself could
groundwater and surface water     have conducted a more thorough search for records involving waste disposal
contamination, EPA listed the     activities at the Site by enforcing disclosure requirements on Ford. Had EPA
Site on the Superfund National    taken or enforced these actions, it may have produced information that supported a
Priorities List (NPL). In 1994,   more comprehensive site investigation or identified additional paint sludge. Under
after addressing known            EPA orders, Ford is conducting an ongoing, comprehensive Site investigation. If
concerns, EPA deleted it from     done properly, it should address concerns about the initial Site investigation.
the NPL. However, several
more cleanup actions have         EPA Region 2 managers were not regularly documenting ongoing Site visits and
occurred at the Site since,       discussions with State managers. EPA’s Records Management Manual requires
prompting EPA for the first       documentation of such activities in certain circumstances.
time in Superfund’s history to
restore a site to the NPL.         What We Recommend

                                  We recommend that EPA Region 2 ensure that: 1) Ford has submitted all relevant
For further information,          information regarding the company’s waste disposal activities at the Site; 2) the
contact our Office of
Congressional and Public
                                  Ringwood community receives the required notification of the initiation and
Liaison at (202) 566-2391.        results of any future 5-year reviews at the Site; and 3) appropriate EPA staff
                                  receive written guidance defining their responsibilities for complying with EPA’s
To view the full report,          records management policies when conducting conversations with State officials
click on the following link:      and during site visits. In its response to the draft report, the Region agreed with
www.epa.gov/oig/reports/2007/
                                  recommendations 1 and 2, but did not agree with recommendation 3, which we
20070925-2007-P-00039.pdf
                                  revised to account for the Region’s comments.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




                                       September 25, 2007

MEMORANDUM

SUBJECT:               Limited Investigation Led to Missed Contamination
                       at Ringwood Superfund Site
                       Report No. 2007-P-00039


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Alan J. Steinberg
                       Regional Administrator
                       Region 2

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. The OIG
responded to the Agency’s draft report comments by making changes to the report and providing
responses to EPA, as appropriate. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $544,626.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response should include a corrective action plan for agreed
upon actions, including milestone dates. Please email an electronic version of your response that
complies with Section 508 of the Rehabilitation Act to Patrick Milligan at
milligan.patrick@epa.gov. We have no objections to the further release of this report to the
public. This report will be available at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829, or
copper.carolyn@epa.gov; or Patrick Milligan, Project Manager, at (215) 814-2326, or
milligan.patrick@epa.gov.
                                     Limited Investigation Led to Missed Contamination
                                                at Ringwood Superfund Site



                                         Table of Contents 

Purpose ................................................................................................................................   1

Background ..........................................................................................................................       1

Scope and Methodology .....................................................................................................                 2

Limited Approach Impedes Discovering All Paint Sludge ...............................................                                       3

             Site Survey Limited to Visible Paint Sludge in Designated Areas… .......................                                      4
             EPA Did Not Ensure Investigation Made Full Use of Aerial Photographs...............                                           4
             EPA Did Not Require Ford to Conduct Further Search of Records ........................                                        5

EPA Provided Oversight of Cleanup, But Did Not Notify Community of
5-Year Reviews.....................................................................................................................         6

             EPA Ensured Removing Identified Paint Sludge and Implementing
              Appropriate Remedy ............................................................................................               6
             EPA Followed the Process for Site Deletions, But Did Not Notify
              Community of 5-Year Reviews.............................................................................                      7

EPA Needs to Improve Current Recordkeeping Practices ..............................................                                         8

Recommendations...............................................................................................................              9

Agency Comments and OIG Evaluation ............................................................................                            10

Status of Recommendations and Potential Monetary Benefits.......................................                                           11



Appendices
     A       Timeline of Events at Ringwood ..........................................................................                     12   


     B       Details on Scope and Methodology.....................................................................                         13   


     C       Agency Comments on Draft Report ...................................................................                           14   


     D       Distribution ............................................................................................................     17   

Purpose
This report addresses questions raised about the cleanup of the Ringwood Mines/Landfill
Superfund site (Site) and the U.S Environmental Protection Agency’s (EPA’s) oversight
of that cleanup. We performed this evaluation in response to a request from members of
Congress. We addressed the following questions:

       •	 What changes have occurred or what conditions did EPA identify that
          necessitate the restoration of the Site on the NPL? Why were these factors not
          previously identified or addressed as part of the initial remedial action?

       •	 Did EPA select a remedy based on complete, thorough, and accurate data
          collection and analysis that would ensure protection of human health and the
          environment?

       •	 Did EPA provide adequate and proper oversight of the remedial investigation,
          feasibility study, remedy selection process, and Site cleanup in accordance
          with applicable laws, regulations, policies, guidance, and past Agency
          practices?

Background
The 500-acre Site operated as iron mines, beginning in the early 1700s. Multiple parties
disposed wastes at the Site since the 1960s. From 1967 until 1974, Ringwood Realty, a
subsidiary of the Ford Motor Company (Ford), owned the Site. During this period, Ford
disposed automobile manufacturing wastes, including car parts and paint sludge, on the
ground, and in abandoned pits and mineshafts. In 1970, Ringwood Realty donated 290
acres in the southern portion of the Site to the Ringwood Solid Waste Management
Authority (Agency of the Borough of Ringwood (Borough)), which began operating a
permitted municipal landfill in 1972. Ford utilized the landfill for disposal of its wastes
until 1974. The New Jersey Department of Environmental Protection (NJDEP) ordered
the landfill closed in 1976 after confirming contamination leaching from the landfill into
nearby surface water.

At the time of the initial Site investigation in 1984, the Site consisted of rugged forested
areas and open areas overgrown with vegetation. There were also abandoned pits and
mineshafts, an inactive landfill, open waste dumps, and about 50 private homes. Surface
water and groundwater beneath the Site discharged into the Wanaque Reservoir, a
drinking water source for approximately 65,000 people, located one-half mile from the
waste disposal areas.

EPA placed the Site on the Superfund National Priorities List (NPL) in 1983. Test results
in 1982 had indicated the detection of heavy metals in groundwater and surface water,
and there were concerns with the Site's close proximity to the Wanaque Reservoir. EPA
identified two liable parties responsible for contaminating the Site -- Ford and the
Borough.


                                             1

Between 1984 and 1988, under EPA and NJDEP oversight, Ford conducted the initial
Site investigation and removed paint sludge identified during the investigation. In 1989,
Ford implemented a long-term monitoring program as part of the “no action remedy”
selected to address groundwater and surface water concerns at the Site. Through 1993,
groundwater monitoring results showed that the detection of contaminants was sporadic
and inconsistent. Results also showed that contamination was not migrating from the
Site. Surface water results detected no contaminants above acceptable levels. On this
basis, in agreement with the NJDEP, EPA deleted the Site from the NPL in 1994.

As required by the Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA), EPA performed its first 5-year review of the Ringwood Site in
1998. The purpose of a 5-year review is to determine whether remedies are protecting, or
will protect, human health and the environment. The first 5-year review concluded the
Site was protective of human health and the environment. In 2003, EPA conducted a
supplemental 5-year review and again declared the Site protective of human health and
the environment, and recommended discontinuing the 5-year review process.

Between 1990 and 2004, Ford continued to remove new discoveries of paint sludge.
Consequently, EPA issued an Administrative Order of Consent to Ford and a Unilateral
Administrative Order to the Borough during the fall of 2005 for a supplemental Site
investigation. Per the two orders, Ford and the Borough are required to coordinate their
cleanup efforts at Ringwood. EPA required the supplemental investigation to determine
the nature and extent of contamination at the Site. Identified by EPA as the performing
party, Ford agreed to perform the investigation, including resurveying the Site, removing
remaining surface paint sludge, removing additional paint sludge identified during the
Site survey, and conducting groundwater and surface water monitoring. Since December
2004, Ford has removed over 24,000 tons of paint sludge and soil as part of the ongoing
cleanup effort. These more recent cleanup actions have prompted EPA for the first time
in Superfund’s history to restore a site to the NPL.

See Appendix A for a detailed timeline of events at Ringwood.

The OIG’s Office of Congressional and Public Liaison issued a separate report1 on
April 2, 2007, that addressed environmental justice concerns and community relations
issues at the Site.

Scope and Methodology
We conducted our evaluation from June 2006 through July 2007 in accordance with
generally accepted government auditing standards. We limited our review to compliance
with those management controls related to the issues identified in the congressional
request.


1
 OIG Report No. 2007-P-00016 titled Environmental Justice Concerns and Communication Problems
Complicated Cleaning Up Ringwood Mines/Landfill Site.


                                                2

At the time of the Site cleanup, EPA was in the early stages of implementing the
Superfund program. Compared to the Superfund program today, a relatively small
amount of policy and guidance was available to EPA as it conducted oversight of the
Ringwood cleanup in the mid 1980s. We evaluated EPA’s performance against the
criteria applicable at the time, where criteria existed. We primarily relied on the
applicable requirements stipulated in the legal cleanup agreements (i.e., Administrative
Orders of Consent and Unilateral Administrative Orders).

Our review focused on whether EPA selected a remedy based on complete, thorough, and
accurate data collection and analysis, and whether that remedy would ensure protection
of human health and the environment. We also evaluated whether EPA provided proper
oversight of the remedial investigation, feasibility study, remedy selection process, and
Site cleanup in accordance with applicable laws, regulations, policies, guidance, and past
Agency practices. We did not evaluate activities performed under the 2005
Administrative Orders issued to Ford and the Borough. However, we did evaluate these
activities to determine differences in current investigative practices versus past actions.

To accomplish our objectives, we interviewed past and present EPA Region 2 and
NJDEP managers involved with the Site. We reviewed EPA’s Ringwood Superfund Site
files and Administrative Record files, which included public files, enforcement files,
legal files, and electronic files. We reviewed Site files that NJDEP maintained. We
obtained specific records from Ford that could not be located in EPA’s files. We also
toured the Site to gain an understanding of the location, conditions, characteristics, and
ongoing activities. Appendix B provides further details on our scope and methodology.

Limited Approach Impedes Discovering All Paint Sludge
Between 1990 and 2004, Ford performed four unplanned removals of paint sludge and
other contaminated wastes at the Site. Ford conducted three of the removals after EPA
deleted the Site from the NPL in 1994. This situation occurred because some aspects of
the initial Site investigation were limited, which impeded early discovery of all possible
paint sludge deposits at the Site. EPA could have required Ford to conduct a more
comprehensive Site survey and ensured using available aerial photographs to identify
potential paint sludge locations outside              Figure 1: Exposed Paint Sludge
the originally scoped areas. EPA
could have also conducted a more
thorough search for records involving
waste disposal activities at the Site by
enforcing the disclosure requirements
on Ford. Had EPA taken these actions,
it may have produced information
supporting a more comprehensive Site
investigation or identified additional
paint sludge deposits. Under EPA
orders, Ford is conducting an ongoing,
comprehensive Site investigation.
                                                 Source: EPA OIG Photo Taken August 2006


                                             3
Site Survey Limited to Visible Paint Sludge in Designated Areas

In scoping the investigation work at the 500-acre Site in 1983, Ford identified three areas
where it directed waste haulers to dump waste. Ford also identified a potential fourth
area during its preliminary Site survey. Unlike the three known disposal areas, there
were no records of dumping activities in this fourth area. However, Ford determined that
because there were no signs of natural vegetation, it would investigate the area. EPA and
Ford limited its search for waste, including visible paint sludge, to these four areas. This
was due in part because of the size of the Site, the terrain, and its rugged and dense
forested and vegetative areas. The initial Site investigation included a Site survey that
was also limited to the four areas (1) to identify solid wastes (including paint sludge)
observed on the surface (as well as shallow buried waste), and (2) to map other features
(e.g., seeps, streams, ditches, etc.). An EPA manager stated that EPA did not anticipate
dumping of paint sludge outside these areas, nor hidden paint sludge, because Ford
owned the property and had established designated disposal areas.

EPA’s early focus was primarily on whether wastes from the disposal areas were
threatening human health through contaminated groundwater, surface water, and
sediments. Early surveys alerted EPA to an “extremely large” potential for groundwater
contamination at the Site. Early test results had detected the presence of heavy metals in
both groundwater and surface water, which discharged into the Wanaque Reservoir.

Under the ongoing cleanup, EPA has ensured that Ford conducted a more comprehensive
survey when compared to the initial Site survey. For example, Ford has conducted a
walking survey of the Site to observe surface conditions and to identify paint sludge and
drum remnants buried just beneath the visible surface. Had EPA and Ford used this
technique during the initial Site investigation, it may have provided more information on
the nature and extent of contamination at the Site, which could have helped EPA
determine the proper scope of the investigation.

EPA Did Not Ensure Investigation Made Full Use of Aerial Photographs

EPA could have done more to discover paint sludge outside of the four identified areas of
concern. The Agency could have ensured better use of the aerial photography analysis.
Use of this tool could have identified at least one area, along Hope Mountain Road, that
is part of ongoing removal efforts. In the ongoing investigation, Ford is extensively using
aerial photography to help identify paint sludge locations.

In 1983, EPA's Environmental Photographic Interpretation Center issued a detailed
analysis of aerial photographs to support the initial Site investigation. This analysis
compared aerial photos of the Site taken between 1940 and 1983 to identify differences in
the ground layout. The analysis helps EPA identify changes in terrain resulting from
newly built roads, trails, and buildings. It also helps EPA find waste sites by identifying
newly filled-in areas, and locations with ground scarring and debris.




                                             4

The aerial photography analysis could have indicated buried paint sludge outside the four
areas of concern. Specifically, the 1974 aerial photograph shows recently formed, large
concentrations of debris piles scattered along Hope Mountain Road. This road was
outside the original four areas identified in the initial Site investigation. The debris piles
are located in or near areas currently targeted for paint sludge removal. EPA Site
managers said they used the aerial photography analysis during the initial Site
investigation to identify potential disposal areas but could “only speculate as to the
investigation and elimination of other discrete areas identified in the photos.” EPA
records showed that EPA and Ford did “walk up” Hope Mountain Road during the initial
investigation, but no removals from Hope Mountain Road occurred under the initial
removal activities.

EPA Did Not Require Ford to Conduct Further Search of Records

In May 1983, EPA sent Ford a CERCLA Section 104 (e) information request regarding
Ford’s waste disposal activities at the Site. Ford’s response did identify the three areas
where they directed waste haulers to dump waste.
However, several aspects of the response should
have prompted EPA to enforce, or independently              Figure 2: Ongoing Cleanup Effort
conduct, a more thorough search for records
involving Ford’s waste disposal activities at the
Site. For example, Ford did not certify that the
information it submitted was complete. Rather,
Ford stated, “In the spirit of cooperation and to
assist in expediting EPA’s investigation, Ford
Motor Company has reviewed [our] files which
have been located and are reasonably likely to
contain information responsive to EPA’s request.”
Specifically, Ford did not submit required
information on the amount of each hazardous
substance disposed of at Ringwood. EPA did not
conduct any followup enforcement or general              Source: EPA OIG Photo Taken August 2006
inquiries to Ford to find out where this
information was or why Ford did not submit it.

Ford disclosed to EPA that it had poor performance issues with its waste hauler. Yet
EPA did not follow up with Ford to determine whether this poor performance could have
implications for the scope of the Site investigation. For example, EPA did not seek to
determine whether the waste hauler’s poor performance involved haphazard or
unauthorized dumping. Had EPA taken action to enforce Ford’s information disclosure
requirements, or to conduct its own independent search for records, it may have produced
information that supported a more comprehensive Site investigation. Then, in 2004, Ford
disclosed additional information to EPA regarding its waste disposal activities due to
“renewed interest” at the Site. Ford’s 2004 disclosure contained information not
provided to EPA in 1983.




                                              5

EPA Provided Oversight of Cleanup, But Did Not Notify
Community of 5-Year Reviews
Based on the results of the initial investigation and the removal of identified paint sludge,
EPA selected a “no further action remedy” with long-term monitoring that addressed
groundwater and surface water concerns at the Site. The Agency based the remedy
selection on complete, thorough, and accurate data collection and analysis of soil,
groundwater, surface water, and sediment samples taken during the initial Site
investigation.

EPA prepared the record of decision and explained its rationale for selecting the final
remedy. EPA’s oversight ensured removing identified paint sludge and implementing the
remedy. EPA followed the process for site deletion; however, EPA’s 5-year review
failed to address community notification requirements.

EPA provided continued oversight throughout the initial Site investigation, feasibility
study, and Site cleanup. EPA oversight included reviewing and approving of work
products produced by Ford (through its environmental contractors). The requirements for
work products and EPA oversight responsibilities were contained in Administrative
Orders. EPA primarily used contractors to oversee Site activities. EPA made Site visits
to provide direct oversight of Ford. While EPA had primary oversight responsibility for
the cleanup, NJDEP took a secondary role.

From 1984 to 1988, Ford conducted the initial Site investigation to determine the nature
and extent of contamination at the Site. Based on the results of the initial Site
investigation, Ford concluded an overall lack of ground water contamination, but
suggested that paint sludge might be leaching near shallow groundwater. In 1987, EPA
required Ford to assess the risk associated with contamination at the Site. The
assessment generally concluded that the Site posed a potential health concern. There was
a risk of possible exposure to hazardous substances, including arsenic and lead. As
required under Superfund, the Agency for Toxic Substances and Disease Registry
independently conducted a human health assessment for the Site. The assessment
included the results of the initial Site investigation and, similar to Ford, concluded that
the Site posed a potential health concern.

EPA Ensured Removing Identified Paint Sludge and Implementing
Appropriate Remedy

In 1987, EPA issued a Unilateral Administrative Order to Ford to initiate a program for
removing paint sludge and associated contaminated soils. As a result, Ford removed
11,340 tons of paint sludge and contaminated soil from the Site identified during the
initial investigation. With these removal efforts completed in 1988, EPA believed it had
removed the source of groundwater, surface water, and sediment contamination at the
Site.



                                              6

In 1988, EPA issued a record of decision documenting the “no further action remedy.”
The remedy included a long-term monitoring program to ensure protection of human
health and the environment. In 1989, EPA ensured that Ford initiated the long-term
monitoring program according to the requirements of the record of decision and work
plan approved under the Administrative Order. The work plan called for a 5-year
monitoring program. It focused on the areas of concern identified during the initial Site
investigation. The work plan also called for an evaluation of the monitoring program
after the first year.

Because of acceptable test results during the first year, EPA and Ford agreed to reduce
the number of wells sampled. In addition, EPA reduced the type of testing performed for
potable and groundwater monitoring. Ford, with EPA approval, discontinued surface
water monitoring because none of the pollutants exceeded their acceptable levels.

From 1990 to 1995, except for sporadic detection of lead and arsenic above acceptable
levels, groundwater quality essentially remained unchanged since the initial Site
investigation. Where wells showed a detection of lead and arsenic above acceptable
levels, EPA required additional rounds of sampling. Sample results, issued in 2001,
indicated that detection levels of lead and arsenic in the sampling wells were below
acceptable levels, and thus protective of human health and the environment. On this
basis, EPA made the decision to discontinue groundwater monitoring at the Site.

EPA Followed the Process for Site Deletions, But Did Not Notify
Community of 5-Year Reviews

EPA followed the process for site deletions and conducted the required 5-year reviews.
Under CERCLA, when no further response action is appropriate, EPA can delete a site
from the NPL once it meets criteria. CERCLA also requires that EPA conduct 5-year
reviews at sites in order to determine whether remedies are protecting, or will protect,
human health and the environment.

On November 2, 1994, EPA deleted the Site from the NPL. EPA and NJDEP determined
that no further cleanup by responsible parties was appropriate and that activities
conducted at the Site were protective of human health and the environment. EPA’s
actions related to the deletion process were consistent with requirements. The Agency
used information from the record of decision, the initial Site investigation, and the long-
term monitoring and paint sludge removal programs as the basis for the deletion. In
1993, EPA published a Notice of Intent of Deletion in the Federal Register. This notice
stated EPA had also published a notice in the local newspapers, but EPA’s records did
not contain the notice. EPA received no public comment regarding the deletion during
the 30-day comment period.

In 1998, EPA conducted its first 5-year review at the Site. The review addressed most of
the required components of a 5-year review. However, EPA did not notify the




                                             7

community of the planned 5-year review or of its results.2 Per 5-year review guidance
issued in 1991: “EPA will inform the public when it determines that either a Statutory or
Policy five-year review is appropriate, describe the planned scope of such reviews,
identify the location of the report on the review (see section V below), and describe
actions taken based on any review.” Based on the 1998 5-year review, EPA concluded
that the Site was protective of human health and the environment. The Agency noted that
continued removal of known paint sludge at the Site had eliminated the source of
contamination. However, because paint sludge removal and monitoring activities were
ongoing at the time of the review, EPA recommended another 5-year review on or before
September 30, 2003.

In 2003, EPA issued an addendum to the 1998 5-year review. EPA concluded that the
results of the long-term monitoring, completed in 2001, showed a decrease in the levels
of Site-related contaminants to acceptable levels. With these acceptable levels, the Site
no longer warranted groundwater monitoring. EPA had not identified additional paint
sludge deposits since completion of the removal action in 1998. On this basis, EPA
declared the Site protective of human health and the environment, and recommended
discontinuing the 5-year review process.

However, as with the 1998 5-year review, we found no evidence that EPA met the
community notification requirements, as defined in the June 2001 Comprehensive Five-
Year Review Guidance. EPA must notify the community when the 5-year review will
begin, when it is completed, and the results of the review. Because EPA removed
additional paint sludge in 2004 and restored the Site to the NPL in September 2006, it
plans to conduct additional 5-year reviews at the Site, starting in 2011. EPA will need to
ensure it informs the community of the initiation and results of that review.

EPA Needs to Improve Current Recordkeeping Practices
In our discussion with the current Remedial Project Manager (RPM) regarding EPA’s
relationship with NJDEP, he stated that EPA and NJDEP provide comments to each other
regarding work plans and other cleanup related documents and have meetings and
teleconferences to discuss issues. He explained that the results of these meetings or
negotiations are not always in writing and that each RPM may handle it differently
because no standard protocol exists in this area. He noted that he does not document site
visits in many cases. As applicable guidance, Region 2 cited the 1999 CERCLA
Enforcement Project Management Handbook. The Handbook assists Superfund RPMs in
managing response actions led by potentially responsible parties. In a June 13, 2007,
response to an OIG information request, Region 2 managers wrote the following:

        EPA believes this guidance does suggest that PRPs [potentially
        responsible parties] and EPA’s oversight assistant (usually an EPA
        contractor or Army Corps of Engineer representative) keep accurate
2
 For more information on community communications at the Site, see Chapter 3 of OIG Report No. 2007-
P-00016 titled Environmental Justice Concerns and Communication Problems Complicated Cleaning Up
Ringwood Mines/Landfill Site.


                                                 8

       records of site activities through the use of field activity reports, field
       logbooks and photographic logs. However, this guidance does not
       recommend that the RPM keep written records of all site visits and
       discussions with NJDEP.

We agree that this guidance does not recommend that RPMs maintain records of all site
visits and all conversations with State personnel. However, documentation of the results
of meetings and teleconferences, as well as decisions made during site visits, should
comply with the requirements and responsibilities of EPA’s records management policies
and program. EPA documents this in its Records Management Manual.

Under the authority of the Federal Records Act, EPA’s Agency-wide Records
Management Manual requires written documentation of meetings and site visits in certain
circumstances. The Records Management Manual states that an information resource
may be a record if it

       (1) 	documents significant Agency decisions and commitments;
       (2) adds to a proper understanding of the formulation or execution of Agency
            actions, operations, and responsibilities;
       (3) 	conveys information of value on important Agency activities;
       (4) 	facilitates action by Agency staff;
       (5) 	provides key substantive comments on a draft; and
       (6) 	makes possible a proper scrutiny by Congress or the Agency.

Based on our interviews of EPA Site managers, we believe that site visits and discussions
with State officials would often meet several of the six definitions described above. In
specifically addressing discussions with State agencies, the manual states “any oral
communication where an Agency decision or commitment is made, and that is not
otherwise documented, needs to be captured and placed in the recordkeeping system.”
We believe EPA’s Records Management Manual applies to all EPA programs and
offices, and supports improved Region 2 documentation of its site-related discussions and
site visits.

Recommendations

We recommend that the Region 2 Administrator direct the Region’s Emergency and
Remedial Response Division (ERRD) to:

   1. 	 Conduct a followup Section 104(e) request to Ford Motor Company requesting
        any relevant information regarding its waste disposal activities at Ringwood that
        Ford may still have and has not yet submitted. We also request that Ford certify
        that the information submitted is complete.

   2. 	 Notify the Ringwood community of the initiation and results of any future 5-year
        reviews at the Ringwood site, consistent with EPA guidance.



                                              9

   3. 	 Provide ERRD staff with written guidance defining their responsibilities for
        complying with EPA’s records management policies when conducting
        conversations with State officials and during site visits.

Agency Comments and OIG Evaluation
The OIG made changes to the report based on Region 2’s comments where
appropriate. Appendix C provides the full text of the Region’s comments.

Region 2 agreed with recommendation 1 and stated that within 90 days, they will issue
a follow-up Section 104(e) request to the Ford Motor Company requesting that Ford
perform a review of all relevant and appropriate company files and provide EPA with
any new information that Ford uncovers. Furthermore, EPA will demand that Ford
certify that all information provided to EPA, including past submittals, is true, accurate,
and complete. In response to our final report, Region 2 will need to comment on the
status of these proposed actions. Recommendation 1 is open.

Region 2 agreed with recommendation 2 and stated “consistent with EPA’s
Comprehensive Five-Year Review Guidance, dated June 2001, Region 2 will notify the
community of any future 5-year reviews to be conducted at the Ringwood
Mines/Landfill site.” After re-listing the Site in September 2006, the earliest possible
date for Region 2 to conduct a 5-year review is 2011. We will close recommendation 2
in the Inspector General Operations and Reporting System. However, the OIG may
follow up to ensure this recommendation has been implemented.

Region 2 did not agree with recommendation 3 and believes that ERRD currently
complies with EPA’s Records Management policies. Region 2 said that it documents
significant Agency decisions and commitments in writing and has done so at the
Ringwood site. We revised the report based on the Agency comments regarding EPA’s
Records Management Manual. Although the Region believes it is currently in
compliance, the OIG found that past practices at the Ringwood site did not appear to be
in compliance. Therefore, we have revised recommendation 3 to provide ERRD staff
with written guidance defining their responsibilities for complying with EPA’s records
management policies when conducting conversations with State officials and during
site visits. Recommendation 3 is open and unresolved.




                                             10 

                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                      Planned
     Rec.    Page                                                                                                    Completion   Claimed    Agreed To
     No.      No.                           Subject                          Status1         Action Official            Date      Amount      Amount

      1        9	    Direct the Region’s Emergency and Remedial                O          Region 2 Administrator      January
                     Response Division to conduct a follow-up Section                                                  2008
                     104 (e) request to Ford Motor Company requesting
                     any relevant information regarding its waste
                     disposal activities at Ringwood that Ford may still
                     have and has not yet submitted. We also request
                     that Ford certify that the information submitted is
                     complete.

      2        9	    Direct the Region’s Emergency and Remedial                C          Region 2 Administrator     12/31/2011
                     Response Division to notify the Ringwood
                     community of the initiation and results of any future
                     5-year reviews at the Ringwood site, consistent
                     with EPA guidance.

      3        10    Provide
                          	 Emergency and Remedial Response                    U          Region 2 Administrator 

                     Division staff with written guidance defining their 

                     responsibilities for complying with EPA’s records 

                     management policies when conducting 

                     conversations with State officials and during site

                     visits 





1	    O = recommendation is open with agreed-to corrective actions pending;
      C = recommendation is closed with all agreed-to actions completed;
      U = recommendation is undecided with resolution efforts in progress




                                                                                   11 

                                                                               Appendix A

               Timeline of Events at Ringwood
             Ford contracted with a waste hauler to dispose of waste materials from
  1967
             Ford’s Mahwah, New Jersey, plant.
  1974       Ford stopped sending waste of any type to the Site.
  1983       EPA placed the Site on the NPL.
             EPA identified Ford as a potential liable party for contamination at the
  1984
             Site.
             Ford conducted the initial Site investigation to determine the nature and
1984 -1988
             extent of Site contamination.
             Ford removed 11,340 tons of paint sludge and associated soils
1987-1988
             identified during the initial Site investigation.
             EPA issued a record of decision to implement a long-term monitoring
  1988
             program for the Site.
             Ford removed an additional 600 cubic yards (and also 54 drums)
             discovered during construction-related activities. EPA officially
1990-1991
             identified the Borough of Ringwood as a potential liable party for
             contamination at the Site.
             EPA published a Notice of Intent of Deletion from the NPL in the
  1993
             Federal Register.
  1994       EPA deleted the Site from the NPL.
             Ford removed an additional 5 cubic yards of paint sludge from
  1995
             residential property.
             Ford removed an additional 100 cubic yards of paint sludge discovered
  1998
             by the community.
  1998       EPA conducted its first 5-year review for the Site.
             Ford released its final long-term monitoring report and recommended
  2001
             discontinuing its monitoring program.
             EPA issued an addendum to the 1998 5-Year Review and
  2003       recommended discontinuing the monitoring program and 5-year review
             process.
             Ford initiated removal actions in December and has removed over
  2004
             24,000 tons.
             EPA issued orders to Ford and the Borough of Ringwood for a
  2005       supplemental Site investigation to determine the nature and extent of
             remaining contamination.
  2006       EPA restored the Site to the NPL.




                                           12 

                                                                                       Appendix B

                  Details on Scope and Methodology
We conducted our evaluation from June 2006 through July 2007 in accordance with generally
accepted government auditing standards. We limited our review to compliance with those
management controls related to the issues identified in the congressional request. Our scope
covered the cleanup of the Site and EPA’s oversight role. We reviewed activities from Site
discovery (1979) through 2003. Our review did not include assessing activities at the Site since
2004 or those activities pertaining to the Administrative Orders EPA issued to Ford and the
Borough in 2005. To understand EPA’s oversight role and specific Site activities, we
interviewed past and present EPA Site managers in Region 2. We also reviewed the National
Contingency Plan (NCP), Comprehensive Environmental Response, Compensation, and Liability
Act (CERCLA), and other program documents and records applicable to EPA’s Superfund
process.

To address the restoration of the Site on the NPL, we reviewed documents related to paint sludge
removal activities. These activities happened before and after EPA deleted the Site from the
NPL. We also reviewed documents pertaining to the current supplemental investigative
activities conducted by Ford. We compared current and past activities at the Site to determine
differences in EPA’s approach. We compared current and past investigative practices used in
identifying paint sludge.

To address the appropriateness of the remedy selected, we reviewed key documents leading to
selection of the remedy. The documents included the remedial investigation, feasibility study,
risk assessment, paint sludge removal program, and the record of decision. We evaluated the
completeness, thoroughness, and accuracy of these documents. We based our evaluation on
applicable criteria. The criteria included the NCP, CERCLA, and various Office of Solid Waste
and Emergency Response (OSWER) Directives. In addition, we evaluated EPA's and NJDEP's
review and approval of these documents.

To evaluate whether EPA provided proper oversight of the initial Site investigation, feasibility
study, the paint sludge removal program, and Site cleanup in accordance with applicable laws,
regulations, policies, guidance, and past Agency practices, we reviewed documents related to
EPA's activities and processes. Likewise, we assessed EPA actions related to the remedy
selection process, 5-year reviews, Site closeout, and deletion from the NPL. We evaluated these
processes based on applicable criteria at the time of the cleanup. We also reviewed various
OSWER Directives pertaining to Site deletion and 5-year reviews.

To determine consistency with past Agency practices, we conducted a search for an NPL site
similar to the Ringwood site. We searched EPA’s Comprehensive Environmental Response,
Compensation, and Liability Information System (CERCLIS) database. We also asked EPA
Region 2 Site managers whether they were aware of any NPL sites similar to Ringwood. Our
analysis did not result in the identification of a site that had enough similar characteristics to
compare. Therefore, we were unable to determine consistency with past Agency practices.



                                                 13 

                                                                                          Appendix C


                      Agency Comments on Draft Report


                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 

                                            REGION 2 




      DATE:	 September 20, 2007

   SUBJECT:     Region 2 Comments on OIG Draft Report - Ringwood Mines

      FROM:	    Donna J. Vizian 

                Assistant Regional Administrator for Policy and Management        /s/ 


         TO:	   Carolyn Copper 

                Office of Inspector General 


EPA Region 2 welcomes the opportunity to comment on the Office of the Inspector General’s draft
Evaluation Report on the Ringwood Mines/Landfill Superfund site.

Region 2’s responses to each recommendation in the draft report are as follows:

OIG Recommendation #1

"We recommend that the Region 2 Administrator direct the Region’s Emergency and Remedial
Response Division to conduct a follow-up Section 104 (e) request to Ford Motor Company
requesting any relevant information regarding its waste disposal activities at Ringwood that Ford
may still have and has not yet submitted. We also request that Ford certify that the information
submitted is complete.”

Region 2 Response

Region 2 concurs; within ninety (90) days we will issue a follow-up Section 104(e) request to the
Ford Motor Company requesting that Ford perform a review of all relevant and appropriate company
files and provide EPA with any new information that Ford uncovers. Furthermore, EPA will
demand that Ford certify that all information provided to EPA, including past submittals, is true,
accurate and complete. It should be noted, however, that Ford has on at least two prior occasions
supplemented its response to EPA’s original 104(e) request. Furthermore, Ford has a continuous,
legal obligation to supplement its original response, if additional pertinent information is uncovered.




                                                    14 

OIG Recommendation #2

"We recommend that the Region 2 Administrator direct the Region’s Emergency and Remedial
Response Division to notify the Ringwood community of the initiation and results of any future 5-
year reviews at the Ringwood site, consistent with EPA guidance.”

Region 2 Response

Region 2 concurs; consistent with EPA’s Comprehensive Five-Year Review Guidance, dated June
2001, Region 2 will notify the community of any future 5-year review to be conducted at the
Ringwood Mines/Landfill site.


OIG Recommendation #3

"We recommend that the Region 2 Administrator direct the Region’s Emergency and Remedial
Response Division to comply with EPA’s Records Management Policy for creating written records
of staff conversations with State officials and Site visits when these criteria apply to the conversation
or Site visit that it

       •	 documents significant Agency decisions and commitments;
       •	 adds to a proper understanding of the formulation or execution of Agency actions,
          operations, and responsibilities;
       •	 conveys information of value on important Agency activities;
       •	 facilitates action by Agency staff;
       •	 provides key substantive comments on a draft; and
       •	 makes possible a proper scrutiny by Congress or the Agency.”

Region 2 Response

First, please note that the bulleted points quoted in the above recommendation are not from EPA’s
Records Management Policy, rather are from EPA’s Records Management Manual, which is a
separate document. In addition, the OIG on page 8 of the report states that “an information resource
will be a record if it …..”, but the Records Management Manual states that “an information resource
may be a record if it…” It is important to note the distinction between will vs. may.

Region 2 believes that its Emergency and Remedial Response Division currently complies with
EPA’s Records Management policies. Region 2 does document significant Agency decisions and
commitments in writing and has done so at the Ringwood site. For example, January 17, 2007 e-
mail correspondence between the Region 2 Remedial Project Manager and a State official clearly
documents in writing the decision to allow water generated during removal work in the SR-9 area of
the Site to be discharged to the ground. Another example concerns the very contentious issue of
vibrations monitoring. Although a number of site visits were conducted, the actual decisions were
documented in letters from our Regional Administrator to the NJDEP Commissioner on May 11,
2007 and May 17, 2007.



                                                     15 

It should be noted that significant Agency decisions are made by Region 2 after consultation with
appropriate EPA and NJDEP technical support staff. This is best accomplished by requiring the
performing party to submit a work plan which details the proposed cleanup or investigatory work.
The work plan is then reviewed by appropriate Region 2 and NJDEP staff and written comments are
provided to the Region 2 Remedial Project Manager. Comments and concerns regarding the
adequacy of the draft work plan are then compiled into a comment letter which is provided to the
performing party. When the work plan is deemed acceptable to Region 2, an approval letter is
provided to the performing party. Therefore, while written documentation of all conversations and
site visits regarding a particular technical issue is not generated, written records which document
Region 2’s decision-making process are generated and should be present in the Site files. If a
significant decision regarding a technical issue is decided during a site visit, Region 2 will generate a
memo to the file to document this. Otherwise, Region 2 will evaluate information collected during a
site visit after completion of the visit and, if appropriate, a decision will be documented in writing to
the appropriate party.

Additional Comment

Page 2, 2nd paragraph – This report indicates that since December 2004, Ford has removed over
22,000 tons of paint sludge and soil. Please note that over 24,000 tons of paint sludge and soil have
been removed by Ford during this timeframe.

If you have any questions on the attached comments, please contact John Svec of my staff at (212)
637-3699.




                                                     16 

                                                                                Appendix D

                                    Distribution

Office of the Administrator
Regional Administrator, EPA Region 2
Deputy Regional Administrator, EPA Region 2
Associate Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Site Remediation and Technology Innovation, Office of Solid Waste
       and Emergency Response
Director, Emergency and Remedial Response Division, EPA Region 2
Deputy Director, Emergency and Remedial Response Division, EPA Region 2
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, EPA Region 2
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Director, Public Affairs Division, Region 2
Acting Inspector General




                                             17 

